Ti

C@OCKLE

2311 Douglas Street
Omaha, Nebraska 68102-1214

Est. 1923
1-800-225-6964
(402) 342-2831
Fax: (402) 342-4850 No. 19-223
JANICE SMYTH,
Petitioner,

Legal Briefs

E-Mail Address:

contact@cocklelegalbriefs.com

Web Site
www.cocklelegalbriefs.com

v.
CONSERVATION COMMISSION OF FALMOUTH, ET AL.,

Respondents.

AFFIDAVIT OF SERVICE

I, Andrew Cockle, of lawful age, being duly sworn, upon my oath state that I did, on the 19th day of September, 2019, send
out from Omaha, NE 2 package(s) containing 3 copies of the BRIEF OF AMICUS CURIAE CENTER FOR
CONSTITUTIONAL JURISPRUDENCE IN SUPPORT OF PETITIONER in the above entitled case. All parties required to
be served have been served by Priority Mail. Packages were plainly addressed to the following:

SEE ATTACHED

To be filed for:
JOHN C. EASTMAN
Counsel of Record
ANTHONY T. CASO
The Claremont Institute Center for Constitutional
Jurisprudence
c/o Fowler School of Law
Chapman University
One University Drive
Orange, CA 92866
(877) 855-3330
jeastman@chapman.edu

Counsel for Amicus Curiae

Subscribed and sworn to before me this 19th day of September, 2019.
Iam duly authorized under the laws of the State of Nebraska to administer oaths.

PATRICIA BILLOTTE
General Notary

State of Nebraska
My Commission Expires Nov 24, 2020

éezz 0 tillete Qudrawh, aly

 

 

Notary Public

Affiant

38619
 

 

Attorneys for Petitioner

J. David Breemer Pacific Legal Foundation (916) 419-7111
Counsel of Record 930 G Street
Sacramento, CA 95814

jbreemer@pacificlegal.org

Party name: Janice Smyth

 

Attorneys for Respondents

Matthew Littleton Donahue, Goldberg, Weaver & Littleton (202) 683-6895
Counsel of Record 1008 Pennsylvania Ave SE
Washington, DC 20003

matt@donahuegoldberg.com

Party name: Conservation Commission of Falmouth and Town of Falmouth

 

 
